Supreme Court of !§>nutf) Carolina
In Re Raqib Abdul Al-Amin, Petitioner.
Appellate Case No. 2020-001487

ORDER

Petitioner has filed a petition for a writ of habeas corpus, a notice for motion to
order and petition for declaratory judgment and injunction relief, and a notice and
motion for consent to supplement the record extraordinary writ pursuant to Rule
212(b) in this Court's original jurisdiction. Petitioner has failed to show any
constitutional violations that constitute a denial of fundamental fairness shocking
to the universal sense of justice. Butler v. State, 302 S.C. 466, 468, 397 S.E.2d 87,
88 (1990). Therefore, the petition for a wrif of habeas corpus is denied. Further,
we decline to entertain Petitioner's remaining requests for relief in our original
jurisdiction; See Key v. Currie, 305 S.C. 115, 116, 406 S.E.2d 356, 357 (1991)
(holding this Court will not entertain matters in its original jurisdiction where the
matter can be entertained in the lower courts unless there is a question of public
importance or an emergency).

*

r

Columbia, South-Carolina
. - „

v • ;

August 6, 2021

